HHS/OIG, Audit - "Review of Selected Cost Centers Applied to Title IV-E
Administrative and Training Costs Claimed by the Maryland Department of Human
Resources," (A-03-04-00580)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Selected Cost Centers Applied to Title IV-E
Administrative and Training Costs Claimed by the Maryland Department of Human
Resources," (A-03-04-00580)
February 10, 2006
Complete
Text of Report is available in PDF format (1.19 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Maryland Department
of Human Resourcess claims for Title IV-E administrative and training costs
complied with its cost allocation plan.  Maryland did not comply with its cost
allocation plan.  During the audit, Maryland amended its plan and made
adjustments to refund about $3.2 million.  We recommended that Maryland: refund
$1,851,481 (Federal share) improperly claimed through unallowable cost centers,
including two centers not identified in the plan and one center identified in
the plan as dedicated 100 percent to State-only activities; and review claims
made subsequent to our audit period to identify any additional claims made for
these cost centers and make appropriate refunds.  Maryland concurred.